                                                               Issue Date
                                                                      May 23, 2012
                                                               Audit Report Number
                                                                      2012-AT-1009




TO:        José R. Rivera, Director, Community Planning and Development, San Juan Field
            Office, 4ND

           //signed//
FROM:      James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT: The Municipality of Bayamón, PR, Did Not Always Ensure Compliance With
          HOME Investment Partnerships Program Requirements

                                  HIGHLIGHTS

 What We Audited and Why

            We audited the Municipality of Bayamón’s HOME Investment Partnerships
            Program. We selected the Municipality for review as part of our strategic plan
            based on the large amount of HOME funds approved. The objectives of the audit
            were to determine whether the Municipality maintained its financial management
            system in compliance with U.S. Department of Housing and Urban Development
            (HUD) requirements and met HOME program objectives.

 What We Found


            The Municipality’s financial management system did not properly identify the
            source and application of more than $3.5 million in HOME funds, did not support
            the eligibility of more than $288,000 in program charges, and failed to disburse
            more than $420,000 in HOME funds within HUD-established timeframes. As a
            result, HUD lacked assurance that funds were adequately accounted for,
            safeguarded, and used in accordance with HUD requirements.

            The Municipality disbursed $703,473 in HOME funds for two activities that showed
            signs of slow progress without assurance that the activities would generate the
           intended benefits. As a result, HUD had no assurance that funds were used solely
           for eligible purposes and that HOME-funded activities met program objectives and
           fully provided the intended benefits.

           The Municipality reported to HUD more than $901,000 in HOME commitments
           without executing a written agreement or identifying the property in accordance
           with HUD requirements. It also failed to reprogram and put to better use more
           than $48,000 in unexpended obligations associated with two activities that were
           terminated. In addition, it did not report and put to better use more than $62,000
           in program income and recaptured funds. As a result, HUD had no assurance that
           the Municipality met HOME program objectives, commitments, and disbursement
           requirements.

What We Recommend


           We recommend that the Director of the San Juan Office of Community Planning
           and Development require the Municipality to provide all supporting
           documentation to demonstrate the eligibility and allocability of more than $4
           million in HOME program funds. The Director should require the Municipality
           to reprogram or return to its line of credit and put to better use more than $1.3
           million in unexpended obligated funds and HOME funds maintained in its local
           bank account.

           We also recommend that the Director require the Municipality to develop and
           implement an internal control plan to ensure that (1) its financial management
           system complies with HUD requirements, (2) its HOME-funded activities meet
           the program objectives, and (3) accurate information is reported to HUD.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We discussed the findings with HUD and the Municipality during the audit and at
           the exit conference on April 23, 2012. The Municipality provided its written
           comments to our draft report on April 27, 2012. In its response, the Municipality
           generally disagreed with the findings.

           The complete text of the Municipality’s response, along with our evaluation of
           that response, can be found in appendix B of this report. Attachments to the
           Municipality’s comments were not included in the report but are available for
           review upon request.



                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                          4

Results of Audit
      Finding 1: The Municipality’s Financial Management System Did Not Comply     5
                 With HUD Requirements
      Finding 2: The Municipality Did Not Implement Adequate Controls To Ensure   13
                 Compliance With HOME Program Objectives
      Finding 3: The Municipality Did Not Have Adequate Controls Regarding        17
                 Information Entered Into HUD’s Information System

Scope and Methodology                                                             23

Internal Controls                                                                 25

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use              27
   B. Auditee Comments and OIG’s Evaluation                                       28




                                            3
                      BACKGROUND AND OBJECTIVES

The HOME Investment Partnerships Program is authorized under Title II of the Cranston-
Gonzalez National Affordable Housing Act as amended. The U.S. Department of Housing and
Urban Development (HUD) allocates funds by formula to eligible State and local governments
for the purpose of increasing the supply of decent, safe, sanitary, and affordable housing to low-
and very low-income families. State and local governments that become participating
jurisdictions may use HOME funds to carry out multiyear housing strategies through acquisition,
rehabilitation, new housing construction, and tenant-based rental assistance.

Participating jurisdictions are required to commit HOME funds within 24 months and expend
them within 5 years after the last day of the month in which HUD notifies the participating
jurisdiction of HUD’s execution of the HOME agreement. Participating jurisdictions draw down
HOME funds through HUD’s Integrated Disbursement and Information System. HUD’s
information system is also used to monitor and track HOME commitments, program income,
repayments, and recaptured funds, among other things.

The Municipality of Bayamón is the third largest participating jurisdiction in Puerto Rico, for
which HUD has approved more than $4.9 million in HOME funds during the past 3 fiscal years.
HUD’s information system reflected expenditures exceeding $1.75 million during the fiscal year
ending June 30, 2011, for the following activities:

                                   Activity type                 Amount expended
               Home buyer assistance                               $1,242,338
               Community housing development organization             164,500
               New construction                                       161,036
               Planning and administration                            150,308
               Homeowner rehabilitation                                32,660
               Total                                               $1,750,842

The Municipality’s Office of Planning is responsible for administering HOME funds in
coordination with other Municipality offices, including the Municipality’s Department of
Housing and Office of Community Development. Its books and records are maintained in the
offices located at State Road PR-2, km 11, Bayamón, PR. We audited the Municipality’s HOME
program as part of the HUD Office of Inspector General’s (OIG) strategic plan. The
Municipality was selected for review based on the amount of HUD funding provided.

The objectives of the audit were to determine whether the Municipality maintained its financial
management system in compliance with HUD requirements and met HOME program objectives.




                                                  4
                                RESULTS OF AUDIT

Finding 1: The Municipality’s Financial Management System Did Not
Comply With HUD Requirements
The Municipality’s financial management system did not properly identify the source and
application of more than $3.5 million in HOME funds, did not support the eligibility of more
than $288,000 in program charges, and failed to disburse more than $420,000 in HOME funds
within HUD-established timeframes. In addition, it allowed the use of $1,200 for ineligible
expenditures. These deficiencies occurred because the Municipality disregarded HUD
requirements and instructions to ensure compliance with financial requirements. As a result,
HUD lacked assurance that funds were adequately accounted for, safeguarded, and used for
requested and eligible purposes and in accordance with HOME requirements.



 Inadequate Accounting Records



              Regulations at 24 CFR (Code of Federal Regulations) 85.20(b) require
              participating jurisdictions to maintain financial records that are accurate, current,
              and complete and that adequately identify the source and application of funds
              provided for assisted activities. However, the Municipality’s accounting records
              did not comply with HUD requirements and were not adequate for the preparation
              of reports.

              The Municipality’s accounting records did not reflect complete and accurate
              financial information on HOME program activities and did not permit the
              adequate tracing of program receipts and expenditures. For example, the
              Municipality did not maintain a general ledger for the HOME program. The
              record it maintained was basically a disbursement register that did not reflect
              disbursements by grant, activity, and funding type and excluded all disbursements
              associated with program income and recaptured funds. The Municipality also did
              not properly account for HOME receipts, capital assets, and accounts payable and
              receivable. In addition, the Municipality’s records contained several instances of
              incomplete and inaccurate financial information, including an incorrect check
              number and amount and a check improperly recorded as void when it was cashed
              by the vendor. We also found several instances in which the payee name on the
              checks was not consistent with the payee name included in the disbursement
              register.




                                                5
          The Municipality also provided conflicting information on the total amount
          disbursed for HOME-funded activities. For example, the expenditures shown in
          the Municipality’s records for 12 activities did not agree with amounts reflected in
          HUD’s information system.

                                                      HUD’s
                      Activity   Municipality’s    information
                      number       records            system         Difference
                       1811              $0             $30,000       $(30,000)
                       1808         $20,700             $35,000       $(14,300)
                       1807              $0             $11,797       $(11,797)
                       1742         $35,000             $42,213        $(7,213)
                       1806         $27,443             $30,000        $(2,557)
                       1333         $13,138             $14,138        $(1,000)
                       1339         $24,548             $25,226          $(678)
                       1781         $27,068             $26,356            $712
                       1819         $25,269                  $0         $25,269
                       1821         $26,880                  $0         $26,880
                       1822         $29,278                  $0         $29,278
                       1823         $35,000                  $0         $35,000


          The Municipality did not maintain a financial management system that permitted
          the tracing of funds to a level which ensured that such funds had not been used in
          violation of the restrictions and prohibitions of applicable statutes. A
          Municipality official informed us that information in HUD’s information system
          was not reconciled with the Municipality’s accounting records. As a result, HUD
          lacked assurance that funds were adequately accounted for, safeguarded, and used
          for eligible purposes. More than $3.5 million in HOME funds drawn from HUD
          between July 1, 2009, and December 31, 2011, was unsupported. This deficiency
          was also identified in the 2010 HUD monitoring report; however, the deficiency
          continued to exist.


Unsupported Program
Disbursements


          Unsupported home-ownership activities - Regulations at 24 CFR 92.217 require that
          with respect to home-ownership assistance, HOME funds invested in dwelling units
          be occupied by households that qualify as low-income families. Therefore, the
          Municipality must determine whether each family is income eligible by determining
          the family’s annual income. Annual income must include income from all family
          members as required by 24 CFR 92.203(d)(1). The Municipality adopted additional
          requirements and procedures for determining the eligibility of the family.

          The Municipality did not properly document the eligibility of three families assisted
          by not verifying discrepancies found associated with the income eligibility of the



                                             6
                  participants. In addition, it did not always follow its own program requirements and
                  procedures when it determined the eligibility of the participants. As a result, HUD
                  lacked assurance that all of the families’ annual income was considered and whether
                  participants qualified as low-income families as required by HUD. HOME funds
                  totaling $173,978 disbursed for the acquisition of three dwelling units was
                  unsupported.

                   Activity
                   number      Amount                                      Comments
                                           Discrepancies were found regarding income determination. In addition,
                     1760       $60,000    no credit report was issued for the participant as required by the
                                           Municipality.
                                           No verification was documented regarding the possibility that a family
                     1799       $58,645    member was not considered in determining the family’s composition and
                                           income.
                                           No income verification was documented regarding a family member and
                     1798       $55,333    a discrepancy found in the participant’s credit report. The Municipality
                                           also used an incorrect income limit.

                  Unsupported project delivery costs - Regulations at 24 CFR 92.206(d)(6) allow
                  disbursements for eligible project costs, including staff and overhead costs
                  directly related to carrying out the project, such as services related to assisting
                  potential owners, tenants, and home buyers. In addition, 24 CFR 92.508(a)(3)(ii)
                  requires participating jurisdictions to maintain records demonstrating the source
                  and application of funds, including supporting documentation, in accordance with
                  24 CFR 85.20.

                  The Municipality charged to the HOME program the amount of $114,139 as
                  project costs associated with wages and other administrative costs. However, it
                  did not maintain supporting documentation providing the basis and
                  reasonableness of funds charged to home-ownership activities and how these
                  costs directly related to carrying out the activities. The Municipality did not track
                  its employees’ time by activity or implement a cost allocation plan to distribute
                  payroll costs among HOME-funded activities. In addition, it did not locate
                  disbursement vouchers associated with the payment of more than $22,618 in
                  payroll costs.1 Therefore, HUD lacked assurance of the reasonableness,
                  allowability, and allocability of more than $114,000 in project delivery costs
                  charged between July 1, 2008, and November 9, 2010.




1
 The Municipality did not locate nine original disbursement vouchers associated with the payment of more than
$22,618 in payroll costs. It did locate copies of disbursement vouchers associated with $19,715 but did not locate a
copy of the disbursement voucher associated with the payment of $2,903 in payroll costs.


                                                         7
HOME Funds Not Disbursed in
a Timely Manner


          HUD’s regulations at 24 CFR 92.502(c)(3) require that HOME funds in the
          participating jurisdiction’s local bank account, including program income and
          recaptured funds, be disbursed before additional grant funds are requested.
          Participating jurisdictions are also required by 24 CFR 92.502(c)(2) to expend for
          eligible costs HOME funds drawn down from the treasury account within 15
          days. Any unexpended drawdowns must be returned to the treasury account. A
          HUD memorandum, dated April 5, 2011, also provides guidance to participating
          jurisdictions on returning funds drawn down from the treasury account in advance
          or excess of need instead of revising vouchers in HUD’s information system. The
          Municipality failed to disburse HOME funds totaling more than $420,000 in
          HOME funds within HUD-established timeframes.

          Unexpended program income and recaptured funds - The Municipality received
          more than $98,000 associated with program income and recaptured funds that was
          not used before the Municipality made additional drawdowns from HUD. The
          Municipality drew down more than $2 million in HOME funds from HUD since
          July 2010. The 2010 HUD monitoring report included a similar deficiency;
          however, the deficiency continued to exist.

          Withdrawals not expended within 15 days - The Municipality withdrew from its
          treasury account more than $1.7 million in HOME funds between July 1, 2010,
          and July 31, 2011. Contrary to HUD’s regulations, the Municipality failed to
          disburse drawdowns totaling more than $322,000 in HOME funds within 15 days.
          Further, it did not return $86,567 in unexpended drawdowns to HUD. A
          Municipality official informed us that the funds were withdrawn in advance
          because of the possible shutdown of the Federal Government due to the budget
          impasse.

          The following table shows the voucher and activity number, date of drawdown,
          and HOME funds for the drawdowns that were not disbursed within 15 days.




                                           8
                                    Date of                       Days elapsed
  Voucher Activity                 drawdown        Date of     between deposit and
  number number         Amount      deposit     disbursement disbursement dates
 5255383/28 1568         $6,800                 July 21, 2011         101
                                                May 16, 2011           35
 5255383/13    1659        6,193
                                                May 24, 2011           43
                                                 June 3, 2011          53
                           8,839
  5255383/1    1742                              June 8, 2011          58
                           7,213                Not disbursed*        305
 5255383/25    1757       51,420                June 29, 2011          79
 5255383/3                 2,169
                                                 May 16, 2011            35
 5255383/26   1781         8,580
                                                 Oct. 17, 2011            189
 5255383/27                 1,769     Apr. 11,
                           27,443      2011      Aug. 17, 2011            128
 5255383/8     1806
                            2,557               Not disbursed*            305
 5255383/24 1807           11,797               Not disbursed*            305
 5255383/5     1808        35,000               Not disbursed*            305
 5255383/10 1809           30,000                June 16, 2011             66
 5255383/23 1810           18,203                June 16, 2011             66
 5255383/11 1811           30,000               Not disbursed*            305
 5255383/15 1814           20,663                 June 2, 2011             52
 5255383/16                 9,337
               1815                               June 2, 2011             52
 5255383/18                17,467
 5255383/19                12,533
               1816                               June 2, 2011             52
 5255383/21                14,289
        Total:          $322,272
*As of February 10, 2012, funds remained unexpended and had not been returned to HUD.

The Municipality also did not ensure that HOME funds transferred to a
community housing development organization (CHDO) were used in a timely
manner. It withdrew $30,500 in HOME funds for property acquisition on
December 28, 2010, but the CHDO disbursed the funds on April 28, 2011, more
than 3 months after funds were received. A CHDO official informed us that
funds were not disbursed in a timely manner because a legal issue arose after the
receipt of funds that needed to be resolved before the CHDO could acquire the
unit.

The Municipality disregarded HUD’s instructions. As a result, it failed to
disburse funds in a timely manner, and $86,567 in unexpended funds was not
returned to HUD.




                                    9
Ineligible Program
Disbursements


            The Municipality’s financial management system permitted the disbursement of
            $1,200 in HOME funds for predevelopment costs incurred by the CHDO on July 31,
            2006, before the grant agreement was executed on August 29, 2006. This action was
            contrary to HOME regulations at 24 CFR 92.2, which require participating
            jurisdictions to execute a legally binding agreement with the recipient to use HOME
            funds to produce affordable housing.


Lack of Adequate Controls and
Procedures


            The lack of adequate program controls and procedures also contributed to the
            deficiencies in the Municipality’s financial management system. For example, the
            Municipality did not maintain written procedures for accounting for and disbursing
            HOME funds and establishing responsibilities among its personnel. A Municipality
            official informed us that information in HUD’s information system was not
            reconciled with the Municipality’s accounting records. Controls over the
            Municipality’s HOME program checks were also inadequate. For example, checks
            were not prenumbered, we identified at least 19 instances in which there was a gap
            in the check number sequence, and the Municipality did not locate one check that it
            had indicated was void. We also identified purchase orders signed by Municipality
            officials without being dated.

            In addition, the Municipality did not maintain a proper system that permitted
            tracking the status of HOME-assisted activities, including those that could result in
            the payment of program income or recaptured funds and accounting for program
            accomplishments. Further, the Municipality did not provide adequate segregation of
            duties by permitting officials who authorized or recorded transactions to collect
            HOME funds associated with program income and recaptured funds. Therefore, the
            Municipality’s internal controls were not sufficient and adequate to assure HUD that
            HOME funds were adequately accounted for, safeguarded, and used for authorized
            purposes and in accordance with HUD requirements. Management must establish
            and implement adequate controls and procedures to permit proper accountability for
            all HOME funds to ensure that they are used solely for authorized purposes.




                                             10
    Conclusion


                 The Municipality maintained a financial management system that did not reflect
                 the full history of all financial transactions, did not properly identify the source
                 and application of HOME funds, permitted program charges for unsupported and
                 ineligible costs, and did not ensure that HOME funds were disbursed within
                 HUD-established timeframes. This condition occurred because the Municipality
                 disregarded HUD requirements and instructions. As a result, HUD lacked
                 assurance that funds were used only for requested and eligible purposes. The
                 Municipality must improve its internal controls to safeguard, use, and properly
                 account for HOME program funds.

    Recommendations



                 We recommend that the Director of the San Juan Office of Community Planning
                 and Development

                 1A.     Require the Municipality to develop and implement a financial
                         management system in accordance with HUD requirements and ensure
                         that $3,213,572 in HOME funds drawn from HUD between July 1, 2009,
                         and December 31, 2011, can be traced to a level which ensures that such
                         funds have not been used in violation of the restrictions and prohibitions
                         of applicable statutes or reimburse the HOME program from non-Federal
                         funds.2

                 1B.     Require the Municipality to submit supporting documentation evidencing
                         the income eligibility of the participants assisted with $173,978 in HOME
                         funds or reimburse the program from non-Federal funds.

                 1C.     Require the Municipality to submit supporting documentation showing the
                         allocability and eligibility of $114,139 charged to the HOME program for
                         project delivery costs or reimburse the program from non-Federal funds.

                 1D.     Require the Municipality to return to its line of credit and put to better use
                         $86,567 associated with unexpended funds drawn from its treasury
                         account.




2
 Total disbursements of $3,523,723 were adjusted to consider $173,978 questioned in recommendation 1B, $86,567
questioned in recommendation 1D, and $49,606 questioned in recommendation 2B.


                                                     11
                1E.      Require the Municipality to put to better use $35,977 associated with
                         unexpended program income and recaptured funds maintained in its local
                         bank account.3

                1F.      Require the Municipality to reimburse the HOME program from non-
                         Federal funds $1,200 paid for ineligible costs.

                1G.      Increase monitoring of the Municipality’s performance in the
                         administration of its HOME program.




3
  Unexpended program income and recaptured funds in the amount of $98,239 were adjusted to consider $62,262
included in recommendation 3A.


                                                     12
Finding 2: The Municipality Did Not Implement Adequate Controls To
Ensure Compliance With HOME Program Objectives
The Municipality disbursed $703,473 in HOME funds for two activities that showed signs of slow
progress without assurance that the activities would generate the intended benefits. This condition
occurred because the Municipality did not take appropriate planning and monitoring measures to
ensure that funds were used in accordance with all program requirements as required by HUD. As a
result, HUD had no assurance that funds were used solely for eligible purposes and that HOME-
funded activities met program objectives and fully provided the intended benefits.



    Slow Progress Activities


                  HUD regulations at 24 CFR 92.504(a) provide that the participating jurisdiction is
                  responsible for managing the day-to-day operations of its HOME program,
                  ensuring that HOME funds are used in accordance with all program requirements
                  and written agreements, and taking appropriate action when performance
                  problems arise. HUD regulations also provide at 24 CFR 92.2 that when
                  committing HOME funds for rehabilitation and new construction projects, the
                  construction can reasonably be expected to start within 12 months of the
                  agreement date. The Municipality disbursed more than $703,000 for two
                  activities that reflected slow progress without taking appropriate planning and
                  monitoring measures to ensure the timely completion of the activities, that funds
                  would be used in accordance with all program requirements, and that program
                  objectives would be met.

                  Rental housing project (Ciudad Ensueño housing project) - The Municipality
                  executed an agreement with a CHDO on August 29, 2006, for more than $1
                  million for land acquisition and predevelopment costs associated with the
                  construction of a 70-unit rental housing project (activity number 1506). Although
                  more than $538,000 (52 percent) of the committed funds had been disbursed, as
                  of January 24, 2012, only 27 of the 70 housing units (38 percent) had been
                  constructed, using only a portion of the land acquired.4

                  More than 5 years had elapsed since HOME funds were committed for the
                  project, and the intended benefits had not materialized. A Municipality official
                  informed us that additional funding to complete the project had not been
                  identified, and that the Municipality would need to reevaluate the viability of the
                  project. Based on this condition, HUD had no assurance that the Ciudad de
                  Ensueño housing project would fully meet HOME program objectives and

4
 In June 2008, the title of the land was transferred to the Municipality, and the construction of the 27 housing units
was completed with local funds. A Municipality official informed us that approximately 2.91 of the 12.12 acres had
been used for the construction of the 27 housing units.


                                                         13
                 provide the intended benefits. Therefore, more than $538,000 in HOME
                 disbursements was unsupported. In addition, $499,700 in unexpended
                 commitments must be deobligated and put to better use since there are no clear
                 plans for the completion of the project.




                     Partial views of the main entrance of the project and 27 housing units constructed




                      Partial views of the 9.2 acres of undeveloped land acquired with HOME funds5

                 Home-ownership acquisition activity - The Municipality obligated in HUD’s
                 information system more than $732,000 in HOME funds for the acquisition of
                 more than five single-family housing units to be rehabilitated by a CHDO
                 (activity number 1699) and resold to low- and moderate-income families.6
                 Although this activity was initially funded in August 2009, the Municipality had
                 disbursed only $164,500 for the acquisition of five properties.7 As of October
                 2011, the CHDO had rehabilitated four of the five properties acquired but had not
                 sold any to low- and moderate-income families. A CHDO official informed us
                 that the rehabilitation of the fifth property had not started because the CHDO was
                 waiting for the resale of the rehabilitated properties to obtain the funding needed
                 to do the work and avoid economic difficulties. In addition, the CHDO had not
                 identified additional properties to be acquired with the more than $568,000 in
                 unexpended HOME commitments.


5
  In addition to the 70 units proposed to be constructed, the CHDO planned the construction of a 30-unit long-term
care and assisted living center at the same site acquired with HOME funds.
6
  The Municipality increased the funding from $473,214 to $732,669.
7
  The properties were acquired between January and April 2011.


                                                        14
           Based on this condition, HUD had no assurance that the housing project would
           fully meet HOME program objectives and provide the intended benefits.
           Therefore, unexpended commitments in the amount of $568,169 must be
           deobligated and put to better use, since there are no clear plans for the acquisition
           of additional properties.


Lack of Adequate Controls and
Procedures


           The Municipality did not establish and implement adequate controls and
           procedures to ensure the timely completion of activities and that funds were used
           in accordance with all program requirements as required by HUD. For example,
           executed agreements with homeowners did not specify the date for activity
           completion and property standards to be met as required by 24 CFR
           92.504(c)(5)(ii). According to the Municipality’s program guidelines and as we
           were informed by a Municipality official, the site visits conducted to the activities
           by its program inspector were to certify completion and verify that the amount
           invoiced agreed with the construction stage of the project but not to certify
           compliance with property standards. In addition, executed agreements with
           CHDOs did not (1) include in sufficient detail a schedule for completing the tasks
           to provide the participating jurisdiction a sound basis on which to effectively
           monitor performance under the agreement, (2) specify whether HOME funds to
           be retained by the CHDO were to be used for HOME-eligible or other housing
           activities to benefit low-income families, and (3) specify that disbursement of
           funds could not be requested until the funds were needed for payment of eligible
           costs, stipulations required by 24 CFR 92.504(c)(3) and 92.300(a)(2).

           The Municipality’s written procedures did not provide for reviewing at least
           annually, as required by 24 CFR 92.504(a), the performance of each contractor
           and subrecipient. The procedures also did not provide for establishing
           responsibilities among its personnel. The Municipality also did not include
           HOME-funded activities in its 2011 and 2012 annual monitoring plan submitted
           to HUD. In addition, it did not maintain a proper system for tracking the status of
           the activities. A Municipality official informed us that no internal audit of the
           HOME program had been performed since at least January 1, 2009. We were also
           informed that the Municipality’s Planning Department had not conducted
           monitoring regarding home-ownership activities carried out by the Municipality’s
           Department of Housing in the last 3 years.




                                            15
    Conclusion


                 The Municipality did not adequately manage HOME-funded activities to ensure
                 that they were carried out in a timely manner and that funds were used to meet
                 HOME program objectives. This condition occurred because the Municipality
                 did not take appropriate planning and monitoring measures to ensure that funds
                 were used in accordance with all program requirements as required by HUD. As
                 a result, HUD had no assurance that more than $538,000 in HOME funds was
                 used solely for eligible purposes and that HOME-funded activities would provide
                 the intended benefits.

    Recommendations



                 We recommend that the Director of the San Juan Office of Community Planning
                 and Development

                 2A.      Require the Municipality to deobligate in HUD’s information system,
                          reprogram, and put to better use $1,067,869 associated with unexpended
                          funds for the activities showing signs of slow progress.8

                 2B.      Determine the eligibility of the $537,773 disbursed for the Ciudad de
                          Ensueño project and reevaluate the feasibility of the activity.9 The
                          Municipality must reimburse its HOME program from non-Federal funds
                          if HUD determines the activity to have been terminated.

                 2C.      Require the Municipality to take adequate measures to ensure that
                          activities with signs of slow progress are completed in a timely manner
                          and that program objectives are met.

                 2D.      Require the Municipality to establish and implement adequate controls
                          and procedures for its HOME program to ensure that HUD requirements
                          and objectives are met.




8
  The two activities had obligations of $1,771,342 and disbursements totaling $703,473 as of January 3, 2012. The
unexpended balance of $1,067,869 ($1,771,342 less $703,473) needs to be reprogrammed and put to better use.
9
  Total disbursements of $538,973 were adjusted to consider $1,200 questioned in recommendation 1F.


                                                        16
Finding 3: The Municipality Did Not Have Adequate Controls
Regarding Information Entered Into HUD’s Information System
The Municipality reported to HUD more than $901,000 in HOME commitments without
executing a written agreement or identifying the property in accordance with HUD requirements.
The Municipality also failed to reprogram and put to better use more than $48,000 in
unexpended obligations associated with two activities that were terminated. In addition, it did
not report and put to better use more than $62,000 in program income and recaptured funds. The
Municipality reported other inaccurate information concerning HOME-funded activities. These
deficiencies occurred because the Municipality did not properly monitor the accuracy of
commitments and other information reported in HUD’s information system. As a result, HUD
had no assurance that the Municipality met HOME program objectives, commitments, and
disbursement requirements.



 Unsupported Commitments



              Participating jurisdictions are required by 24 CFR 92.500(d) and 92.502 to commit
              HOME funds within 24 months of their allocation and report commitment
              information in HUD’s information system. HUD’s regulations at 24 CFR 92.2
              define “commitment” as an executed, legally binding agreement with a State
              recipient, a subrecipient, or a contractor to use a specific amount of HOME funds to
              produce affordable housing or provide tenant-based rental assistance or an executed
              written agreement reserving a specific amount of funds to a CHDO or having met
              the requirements to commit to a specific local project, which also requires that a
              written, legally binding agreement be executed with the project or property owner.
              In addition, no HOME funds can be committed for a rental or home-ownership
              project until address information is available. HUD also requires that the signatures
              of all parties be dated to show the execution date.

              HUD’s information system reflected that the Municipality committed more than
              $2.92 million in HOME funds between July 1, 2010, and July 31, 2011. We
              examined commitments totaling more than $1.76 million that the Municipality
              entered into HUD’s information system. In addition, we examined 28 activities with
              commitments totaling more than $2.54 million that were funded between April 2005
              and August 2011.

              The Municipality reported in HUD’s information system that it had committed
              $781,954 in HOME funds, although it did not have executed agreements with the
              recipients. The actual commitments occurred between 72 and 503 days after the
              funding date. In addition, the Municipality reported in HUD’s information system
              that it had committed $120,000 in HOME funds for two home-ownership activities,
              although there were no identifiable properties (activities number 1757 and 1760).


                                               17
          Therefore, funds in the amount of $901,954 were improperly reported as committed
          and not in accordance with HUD requirements.

                             Reported
                            commitment                                             Days elapsed
                             amount in      Initial funding                           between
                               HUD’s        date in HUD’s           Actual        reporting and
            Activity        information      information          agreement          agreement
            number             system           system               date              dates
              1699           $732,669*       Aug. 7, 2009       Dec. 23, 2010           503
              1329               $9,921      Apr. 15, 2005      Jan. 23, 2006           283
              1333              $14,138      Apr. 15, 2005      Jan. 23, 2006           283
              1339              $25,226      Apr. 19, 2005      June 30, 2005            72
           * The initial funded amount was $473,214 and later increased to $732,669.

          We also found 31 activities in which the Municipality reported in HUD’s
          information system the commitment of more than $3.5 million in HOME funds
          between 1 and 135 days after the grant agreement was executed. The Municipality
          also did not implement adequate controls by not identifying the property(ies) in the
          agreements and requiring that the signatures of all parties be dated to show the
          execution date as required by HUD. As a result, HUD had no assurance that the
          Municipality met HOME commitment requirements.


Unexpended Commitments Not
Reprogrammed


          The Municipality did not reprogram and put to better use more than $48,000 in
          unexpended obligations associated with two terminated home-ownership
          activities (activities 1807 and 1818).

          As a result, obligations in HUD’s information system were overstated, and more
          than $48,000 in HOME funds was not available for other eligible efforts. The
          Municipality should reprogram these funds and put them to better use.




                                                18
                             IDIS*
                 Activity   funding       IDIS amount
                 number       date         unexpended                       Comments
                  1818      June 10,         $30,000     The Municipality terminated the activity
                              2011                       because the participant’s credit history was
                                                         insufficient to qualify the participant for a
                                                         mortgage loan. The contract expired on
                                                         November 30, 2011. However, the
                                                         Municipality did not cancel the activity and
                                                         reprogram the unexpended commitments.
                   1807       Apr. 7,         18,203     The Municipality terminated the activity
                               2011                      because the unit did not qualify for Federal
                                                         Housing Administration financing and the
                                                         participant did not want to go through the
                                                         process of finding another unit. The contract
                                                         expired on July 25, 2011. However, the
                                                         Municipality did not cancel the activity and
                                                         reprogram the unexpended commitments.
                         Total               $48,203
                 * IDIS = HUD’s Integrated Disbursement and Information System. As of December 31,
                 2011, activities were reported in IDIS as open.


     Program Income and Other
     Receipts Not Properly Reported

                 HUD regulations at 24 CFR 92.503 provide that program income, recaptured
                 funds, and repayments received be deposited into the participating jurisdictions’
                 HOME account to carry out eligible activities. These receipts must be reported in
                 HUD’s information system and used before additional HOME withdrawals are
                 made.

                 Contrary to HUD requirements, the Municipality did not report the proceeds of
                 $62,262 in program income and recaptured funds in HUD’s information system.10
                 More than 1 year had elapsed since the Municipality received these funds, but it
                 had not reported them in HUD’s information system. Consequently, HUD had no
                 assurance of the accuracy of the amount that the Municipality received and its
                 compliance with HOME requirements.




10
  Program income and recaptured funds may result from the resale and recapture requirements imposed by HUD
and the Municipality on the participants to ensure affordability during predetermined periods depending on the
assistance amount provided.


                                                       19
Other Inaccurate Reporting


           HUD’s information system contained additional inaccurate information
           concerning the Municipality’s HOME-funded activities. This information
           included the incorrect activity address, project completion date, fund type
           classification, activity type, and funding amount.

           Incorrect activity address - In 17 activities, the address of HOME-funded
           activities reported in HUD’s information system was inaccurate or incomplete. A
           Municipality official explained that in some cases, the address reported in HUD’s
           information system might represent the address of the participant before the
           participant acquired the HOME-funded unit.

           Incorrect project completion date - In 12 activities, the project completion date in
           HUD’s information system was incorrect. These activities included three in
           which the project completion date reported in HUD’s information system was
           between 6 and 7 days before the actual completion date. In addition, in nine
           activities the project completion date reported in HUD’s information system was
           between 2 and 194 days after the actual completion date.

           In addition, the Municipality did not report the project completion information
           within 120 days of the final project drawdown as required by 24 CFR
           92.502(d)(1). In five activities, the information was entered into HUD’s
           information system between 146 and 188 days after the final project drawdown,
           and in one activity, the information had not been reported as of January 3, 2012,
           151 days after the final project drawdown.

           Incorrect fund type classification - Participating jurisdictions are required to
           report in HUD’s information system the type of fund for each activity assisted
           with HOME funds. For three activities, HUD’s information system reflected an
           incorrect fund type classification. These activities included one for which,
           according to the activity file, the assistance was in the form of a loan and not a
           grant and two activities for which more than $37,000 in HOME commitments was
           incorrectly reported as administrative costs.

           Incorrect activity type, tenure, and description - Participating jurisdictions are
           required to report in HUD’s information system the type of activity and tenure.
           For three activities, HUD’s information system reflected an incorrect activity type
           or tenure classification. These activities included one rental activity incorrectly
           reported as home buyer and two activities incorrectly reported to include
           acquisition or rehabilitation. In one instance, the activity description was
           inaccurate as it reported that the activity would consist of nine properties instead
           of five as stated in the agreement. In addition, for two activities, the description
           was not descriptive of the CHDO activities.



                                            20
             Inaccurate funding amount - In one activity, the awarded amount of HOME funds
             shown in HUD’s information system was understated by $5,000 (activity number
             1506). The Municipality’s procedures also permitted committing HOME funds
             for an unspecified amount contrary to HUD requirements in 24 CFR
             92.504(c)(5)(i). For example, executed agreements for 20 home-ownership
             activities were for a not to exceed amount. However, the final assistance
             provided was for a lower amount.


Lack of Adequate Controls and
Procedures


             The Municipality did not develop written procedures providing guidance to its
             personnel regarding the accuracy and monitoring of information reported in
             HUD’s information system, including compliance with HUD reporting
             requirements and deobligation of committed funds, and establishing
             responsibilities among its personnel. Municipality officials informed us that they
             had met with staff to verify reports from HUD’s information system. However,
             the Municipality had not implemented a system for monitoring the accuracy of the
             data entered into the system. Therefore, its internal controls were not sufficient
             and adequate to provide HUD assurance that information entered into HUD’s
             information system was accurate and that the Municipality met HOME program
             objectives, commitments, and disbursement requirements.


Conclusion


             Because the Municipality did not properly monitor, it did not ensure the accuracy
             of commitments and other information entered into HUD’s information system.
             There was no assurance that the Municipality met HUD commitment and
             disbursement requirements and that program objectives were met. The inaccurate
             data compromised the integrity of HUD’s information system and the degree of
             reliability HUD could place on the data for monitoring commitments and
             compiling national statistics on the HOME program. The 2010 HUD monitoring
             report disclosed similar deficiencies; however, the deficiencies continued to exist.




                                              21
Recommendations



          We recommend that the Director of the San Juan Office of Community Planning
          and Development

          3A.     Require the Municipality to report in HUD’s information system and put
                  to better use in accordance with HOME requirements unused program
                  income and recaptured funds totaling $62,262.

          3B.     Require the Municipality to deobligate in HUD’s information system,
                  reprogram, and put to better use $48,203 in commitments for activities
                  that were terminated.

          3C.     Require the Municipality to review all grant agreements for each activity
                  entered into HUD’s information system and correct any inaccurate
                  information, including the address of HOME-funded activities, project
                  completion date, fund type classification, activity type and description,
                  funding amount, and activity status.

          3D.     Reassess the Municipality’s annual commitment compliance and recapture
                  any amounts that have not been committed within HUD-established
                  timeframes.

          3E.     Require the Municipality to establish and implement adequate controls
                  and procedures to ensure the timely and accurate reporting in HUD’s
                  information system of commitment and activity information and receipts
                  associated with program income and recaptured funds.




                                           22
                               SCOPE AND METHODOLOGY

The objectives of the audit were to determine whether the Municipality maintained its financial
management system in compliance with HUD requirements and met HOME program objectives
by providing the intended benefits. The financial requirements included (1) disbursing HOME
funds for eligible and supported costs, (2) disbursing HOME funds within established
timeframes, (3) reporting accurate and supported information in HUD’s information system, and
(4) maintaining accounting records that were complete and accurate.

To accomplish our objectives, we

           Reviewed applicable HUD laws, regulations, and other HUD program requirements;

           Reviewed the Municipality’s controls and procedures as they related to our objectives;

           Interviewed HUD, Municipality, and CHDO officials;

           Reviewed monitoring, independent public accountant, and HUD’s information system
           reports;

           Reviewed the Municipality’s files and records, including activity files and financial
           records;

           Traced information reported in HUD’s information system to the Municipality’s records,
           including executed agreements; and

           Performed site inspections of the activities.

HUD’s information system reflected that the Municipality had 30 open HOME-funded activities
as of August 31, 2011. We selected and reviewed 13 activities for which the last draw was more
than 145 days earlier with commitments totaling more than $2.1 million.11 We reviewed the 13
activities to determine the status of activities for which HOME funds had been disbursed but
which reflected slow progress.

HUD’s information system reflected that the Municipality committed more than $2.92 million in
HOME funds between July 1, 2010, and July 31, 2011. We selected for review seven activities
with commitment amounts greater than $50,000, totaling more than $1.76 million (60 percent).
We reviewed 28 additional activities funded between April 15, 2005, and August 15, 2011, with
commitments totaling more than $2.5 million. We reviewed these 35 activities to determine
whether the information reported to HUD, including commitments, was accurate and supported.

HUD’s information system reflected that the Municipality drew down from its treasury account
more than $1.7 million in HOME funds between July 1, 2010, and July 31, 2011. We selected
11
     We excluded from the review four activities that were reviewed during the 2010 HUD monitoring.


                                                         23
and reviewed withdrawals greater than $50,000, which resulted in six withdrawals totaling more
than $442,000. We reviewed 17 additional withdrawals totaling more than $270,000, based on
deficiencies noted regarding the timeliness of the funds disbursed. A total of 23 withdrawals
totaling $713,212 (40 percent) were reviewed to determine whether HOME funds were disbursed
within HUD-established timeframes.

The Municipality’s records reflected that it disbursed between July 1, 2010, and July 31, 2011,
more than $1.89 million in HOME funds. We selected for review disbursements greater than
$50,000, which resulted in seven disbursements totaling more than $515,000 (27 percent). We
reviewed the disbursements and related supporting documents to determine whether the
payments were made for authorized and eligible efforts and properly supported.

We also selected for review four disbursements totaling $24,007 that were made on March 16,
2011, based on deficiencies noted regarding the allocability of the charges. The withdrawals
were reviewed to determine whether HOME funds were used for supported and eligible costs.

The Municipality’s records reflected that it charged more than $114,000 in HOME funds for
project delivery costs between July 1, 2008, and November 9, 2010. We reviewed the
transactions and related supporting documents associated with more than $33,000 (29 percent) of
the charges to validate the nature and purpose of the charges and their allocability. The
transactions were selected for review based on the fluctuations and materiality of the costs as
compared with the other transactions of the population.

To achieve our audit objectives, we relied in part on computer-processed data contained in the
Municipality’s database and HUD’s information system. Although we did not perform a detailed
assessment of the reliability of the data, we performed a minimal level of testing and found the
data adequate for our purposes. The results of the audit apply only to the items selected and
cannot be projected to the universe or population.

The audit generally covered the period July 1, 2010, through July 31, 2011, and we extended the
period as needed to accomplish our objectives.

We conducted our fieldwork from August 2011 through March 2012 at the Municipality’s
offices in Bayamón, PR.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               24
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

       Effectiveness and efficiency of operations,
       Reliability of financial reporting, and
       Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                  Effectiveness and efficiency of program operations - Policies and procedures
                  that the audited entity has implemented to provide reasonable assurance that a
                  program meets its objectives, while considering cost effectiveness and
                  efficiency.

                  Relevance and reliability of information - Policies and procedures that
                  officials of the audited entity have implemented to provide themselves with
                  reasonable assurance that operational and financial information they use for
                  decision making and reporting externally is relevant, reliable, and fairly
                  disclosed in reports.

                  Compliance with applicable laws, regulations, contracts, and grant agreements
                  - Policies and procedures that the audited entity has implemented to provide
                  reasonable assurance that program implementation complies with provisions
                  of laws, regulations, contracts, and grant agreements.

                  Safeguarding of assets and resources - Policies and procedures that the audited
                  entity has implemented to reasonably prevent or promptly detect unauthorized
                  acquisition, use, or disposition of assets and resources.




                                                25
             We assessed the relevant controls identified above.

             A deficiency in internal control exists when the design or operation of a control does
             not allow management or employees, in the normal course of performing their
             assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
             impairments to effectiveness or efficiency of operations, (2) misstatements in
             financial or performance information, or (3) violations of laws and regulations on a
             timely basis.

Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                The Municipality did not develop and implement a financial management
                system that complied with HUD requirements (see finding 1).

                The Municipality did not implement adequate controls and procedures to
                ensure that HOME activities met program objectives (see finding 2).

                The Municipality lacked written procedures and adequate controls to ensure
                that accurate information on HOME activities was reported to HUD (see
                finding 3).




                                               26
                                    APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

     Recommendation                                                     Funds to be put to
             number           Ineligible 1/        Unsupported 2/            better use 3/
          1A                                        $3,213,572
          1B                                           173,978
          1C                                           114,139
          1D                                                                   $86,567
          1E                                                                    35,977
          1F                     $1,200
          2A                                                                 1,067,869
          2B                                            537,773
          3A                                                                    62,262
          3B                    ______               _________                  48,203
         Total                  $1,200               $4,039,462             $1,300,878


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. These amounts include
     reductions in outlays, deobligation of funds, withdrawal of interest, costs not incurred by
     implementing recommended improvements, avoidance of unnecessary expenditures
     noted in preaward reviews, and any other savings that are specifically identified. In this
     instance, if the Municipality implements recommendations 1D, 1E, 2A, 3A, and 3B,
     funds will be available for other eligible activities consistent with HOME requirements.




                                              27
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




                         28
Comment 2




            29
Comment 3




            30
31
Comment 4




Comment 5




Comment 6




            32
Comment 7




Comment 8




            33
34
Comment 9




Comment 10




             35
Comment 11




             36
                         OIG Evaluation of Auditee Comments

Comment 1   The Municipality stated that it disagreed with OIG’s statement that the cause for
            not complying with financial requirements was the disregard of HUD
            requirements and instructions, and requested the removal of the statement from
            the report. The Municipality also stated that it has been working on the
            implementation of a new information system since 2009 that will permit
            compliance with HUD financial requirements. A new automated system will be
            in place in July 2013.

            The disregard of HUD requirements and instructions was not limited to the
            Municipality’s lack of proper accounting records. The Municipality also
            disregarded HUD requirements and instructions when it failed to disburse HOME
            funds in a timely manner. The fact that the Municipality did not have an
            accounting system (manual or automated) since 2009 demonstrates a serious
            violation of HUD requirements. The establishment and implementation of a
            financial management system requires immediate action by the Municipality to
            permit the proper accountability of HOME funds and ensure that they were used
            solely for authorized purposes. The Municipality did not provide us additional
            documentation that could substantiate its claim. Therefore, we did not modify the
            report cause of the finding.

Comment 2   The Municipality stated that the new information system will permit tracing the
            source and application of HOME funds by activity number and that the
            Municipality will revise the current internal control to improve management of
            HUD-funded programs. The Municipality will need to work with HUD during
            the audit resolution process to ensure that the new financial management system
            is in compliance with HUD requirements.

Comment 3   The Municipality stated that the three families were eligible based on its review of
            income documentation and third party verification done. However, it did not
            provide additional supporting documentation resolving discrepancies found
            associated with the income-eligibility of the participants. The Municipality will
            need to provide HUD additional documentation resolving the discrepancies found
            to determine whether funds were disbursed to assist participants that qualified as
            low-income families as required by the HOME program. Therefore, we did not
            modify the report finding and recommendation.

Comment 4   The Municipality stated that the staff paid with HOME funds was carrying out
            eligible activities under the HOME program. In addition, the staff and overhead
            costs were distributed equally among participants that were assisted in accordance
            with HUD requirements. However, it did not maintain any tracking of the costs
            and that it will provide documentation to show its reasonableness.

            HUD regulations permits charging each project individually for delivery costs
            directly related to carrying out such project. The Municipality will need to submit



                                             37
            HUD supporting documentation showing the allocability and eligibility of project
            delivery costs charged to the HOME program.

Comment 5   The Municipality stated that all funds were in its bank account and it will revise
            its internal controls and procedures to prevent the recurrence of the deficiency
            found. However, it did not address whether it will use HOME funds before
            making additional drawdowns from HUD or return to its line of credit the
            unexpended funds as required. The Municipality will need to take immediate
            action over the disbursement of HOME funds not expended in a timely manner
            consistent with applicable HUD requirements and instructions.

Comment 6   The Municipality believes that CPD Notice-01-11 allows the reimbursement of
            costs incurred before the execution of a grant agreement with the developer and
            requested that the questioned costs be reclassified as unsupported.

            Notice 01-11 provides guidance on the environmental review process required
            under the HOME program. Contrary to the Municipality’s statement, the notice
            does not make reference of the reimbursement of costs incurred by a developer
            prior to the execution of the grant agreement. The Municipality did not provide
            us adequate support that could show the allowability and allocability of the
            disbursement. Therefore, we did not modify the report finding and
            recommendation.

Comment 7   The Municipality believed recommendation 1E should be changed to
            recommending the revision and adoption of procedures for the management of the
            HOME program. However, it did not provide additional supporting
            documentation addressing our recommendation regarding the use of unexpended
            program income and recaptured funds for eligible efforts in accordance with HUD
            requirements. Therefore, we did not modify the report recommendation.

Comment 8   The Municipality stated that it did not agree with OIG’s finding. In addition, the
            scope of the rental housing project was reduced from 70 to 27 units because the
            CHDO was not able to secure all the funding necessary to undertake the project as
            originally planned.

            The reduction in scope was not consistent with the grant agreement signed with
            the CHDO on August 29, 2006. Meanwhile, more than $499,000 in HOME funds
            was committed for the project and the funds were not available for other eligible
            efforts. The Municipality also failed to mention that approximately 9.21 acres of
            the land acquired with HOME funds remain undeveloped without providing any
            benefits. The Municipality will need to work with HUD during the audit
            resolution process to demonstrate the eligibility of HOME funds disbursed for the
            project. Therefore, we did not modify the report finding and recommendations.

Comment 9   The Municipality understands that changes are required to the existing procedures
            and it will undertake a revision of the internal controls and procedures of the



                                             38
              HOME program. It will need to provide HUD documentation showing that
              adequate controls and procedures for its HOME program were established and
              implemented to ensure that HUD requirements and objectives are met.

Comment 10 The Municipality requested HUD technical assistance to improve the performance
           of CHDOs. The Municipality also explained that the commitment of funds for
           activity number 1699 was initially done for the development of another project
           but, the activity was cancelled and the original allocation was never removed
           from HUD’s information system. In addition, it failed to properly record the new
           activity in HUD’s information system. The Municipality requested HUD
           technical assistance and stated it will provide additional information to HUD
           during the audit resolution process.

Comment 11 The Municipality stated that it will address the deficiencies and will implement
           the recommended actions with the assistance of HUD during the audit resolution
           process.




                                             39
